DOE F 1325.8
(08-93)
United States Government                                                                   Department of Energy

memorandum
          DATE:
                  S    August 13, 2007               i                     Audit Report Number: OAS-L-07-17
    REPLY TO
    ATTN OF:          IG-32 (A07PR060)

    SUBJECT:          Audit of Executive Compensation at Argonne National Laboratory

           TO:        Manager, Argonne Site Office'


                      INTRODUCTION AND OBJECTIVE

                      As part of a Department of Energy-wide audit of executive compensation, we
                      rviewed executive compensation at the Office of Science's Argonne National
                         -voratory
                          o        (Argonne). Our audit covered execau:v:.:,.a.upensation costs incurred and
                      tdaimd for Fiscal Years 2003, 2004, and 2005. Foi the period covered by our audit,
                      the University of Chicago operated Argonne under Department of Energy
                      (Department) contract number W-31-109-ENG-38.

                      The amount of executive compensation that can be reimbursed to Department
                      contractors is limited by legislation, regulations, and contract terms. For example,
                      reimbursable compensation is limited to the annual cap determined by the
                      Admiinistrator, Office of Federal Procurement Policy (OFPP). In addition, Department
                      of Energy Acquisition Regulations, Federal Acquisition Regulations (FAR),
                      Department policies and guidance, as well as contract provisions establish limitations
                      and guidelines for determining whether executive compensation is reasonable and
                      allowable. Generally, executive compensation includes salaries, bonuses, incentive
                      "ompensation, pension contributions, health benefits, and other fringe benefits.

                      The objective of our Department-wide audit was to determine whether executive
                      compensation reimbursed to contractors was allowable, consistent with contract terms,
                      and conformed with applicable Federal requirements and guidance.

                      CONCLUSIONS AND OBSERVATIONS

                      We found that Argonne executive compensation costs reimbursed to the University of
                      Chicago did not exceed the annual cap determined by the Administrator, OFPP, and
                      compensation generally complied with applicable provisions of procurement
                      regulations, Department policies and guidance, and the Argonne contract. However,
                      we identified questioned costs related to Argonne's executive compensation.
                      Specifically, we questioned $414,867 consisting of $60,346 for chauffeurs, $253,632
                      for fringe benefit costs associated with unallowable salary costs, and $100,889 for the
                      salary and fringe benefits of an Argonne executive. Details of our questioned costs are
                      as follows:
-U-./15/U7   .U   .                 ....                                                           ..   .   ..




                                                     Chauffeurs

             Argonne employees served as chauffeurs to transport an Argonne executive using
             contractor-owned vehicles. We reviewed chauffeur log books and found that the
             chauffeurs transported the executive for personal activities and for commuting to and .
             from work. The FAR identifies personal trips and commuting as unallowable
             expenses that are not reimbursable under Government contracts. Therefore, we
             questioned $60,346 for chauffeur salary costs for the executive's commuting and
             personal activities. The University of Chicago agreed that these chauffeur salary costs
             should not have been charged to the contract.

                                     Fringe Benefits for Unallowable Salaries

             We questioned $233,160 charged to the Argonne contract for fringe benefit costs
             associated with unallowable salary costs. For some of its executives, Argonne paid
             salaries that exceeded salary ceilings approved by the contracting.officer.
             Appropriately, the contractor did not charge the contract for salary costs in excess of
             approved ceilings and, prior to May 2005, did not charge the contract for fringe
             benefit costs associated with unallowable salary. However, in May 2005, the
             contractor started charging the contract for fringe benefit costs associated with
             unallowable salaries. Furthermorc, fi .t-.y2u05, the contractor charged the contract
             retroactively for fringe benefit costs associated with unallowable salary for the period
             Fiscal Year 2001 to April 2005. For salaries in excess of salary ceilings, we
             questioned associated fringe benefit costs of $14,927 charged for the period May 2005
             through September 2005 and $218,233 retroactively charged for the period Fiscal
             Year 2001 to April 2005.

             In addition to the $233,160, we also questioned fringe benefit costs of $20,472
             associated with the chauffer salaries questioned above.

             The University of Chicago's representative did not concur with our questioned costs
             and advised us that in May 2005 the University had concluded that Acquisition Letter
             2000-12, 2000 Executive Compensation,dated December 15, 2000, allowed fringe
             benefit costs irrespective of any salary ceilings. However, we do not agree with the
             University's interpretation of Acquisition Letter 2000-12 because the section cited by
             the University's representative does not address fringe benefit costs associated with
             unallowable salary. Fringe benefit costs associated with unallowable salary are
             unallowable because the FAR stipulates that unallowable costs should normally
             include all directly associated costs, and Argonne's Cost Accounting Standards
             Disclosure Statement, which describes Argonne's cost accounting practices, states that
             Argonne's full fringe benefit rate is to be applied to all salaries, which would include
             unallowable salaries. Therefore, the fringe benefit costs directly associated with the
             unallowable salary costs were also unallowable.

                               Salary and Fringe Benefits for Argonne Executive

             We questioned $100,889 consisting of salary costs of $58,470 and fringe benefit costs
             of $42,419 for an Argonne executive. This individual was on the faculty of the
             University of Chicago and was compensated through the University's payroll. The
             University charged the Department contract for part of this individual's salary and

                                                 2
.UE.         U                                                 .                           .-   .




        fringe benefit costs. For the 2-year period March 2003 to February 2005, the
       University charged salary costs that exceeded, by $58,470, the salary ceilings
        approved for this individual by the contracting officer. We questioned this excess
        salary cost plus associated fringe benefits of $13,600. For the period April 2005 to
        September 2005, the University also charged fringe benefit costs that were based on a.
       higher portion of the individual's salary than the portion charged to the contract We
       questioned this overcharge to the contract of $15,147. Furthermore, for the 3-year
       period ending September 30, 2005, the University charged fringe benefit costs for the
       executive at rates higher than rates approved for the University by the Department of
       Health and Human Services (HHS). HHS has been designated as the "cognizant
       agency" for the University of Chicago, and in that capacity, HHS entered into annual
       rate agreements with the University. These agreements included fixed fringe benefit
       rates for University employees who were on the.University's payroll and were charged
       to Government-funded grants and contracts. We questioned this overcharge to the
       contract of $13,672.

       RECOMMENDATIONS

       We recommend that the Manager, Argonne Site Office direct the contracting officer
       to;

                 1) Determine the allowability of our questioned costs and recover costs
                    determined to be unallowable; and

             2) Determine whether costs, similar to those identified in our audit, were claimed
                after September 30, 2005, and recover costs determined to be unallowable.

       SCOPE AND METHODOLOGY

       The Department-wide audit was conducted from July 2006 to July 2007 at the Office
       of Management, Department support offices and site offices, and 13 contractor sites,
       including Argonne National Laboratory, in Argonne, Illinois. The scope of the
       Department-wide audit covered executive compensation costs incurred and claimed
       for Fiscal Years 2003, 2004, and 2005 and included the compensation of about
       200 executives including facility directors, deputy directors, key personnel, and other
       senior management employees. Compensation included salaries, bonuses, incentive
       compensation, pension contributions, health benefits, other fringe benefits, travel and
       relocation reimbursements, and any other payments made to the executive or on behalf
       of the executive.

       To accomplish the audit objective, we identified executives and their compensation;
       verified compensation to accounting records and supporting documentation; and,
       tested compliance with legislation, regulations, Department policies and guidance, and
       the contract.

       We conducted the audit in accordance with generally accepted Government auditing
       standards for performance audits and included tests of internal controls and
       compliance with laws and regulations to the extent necessary to satisfy the audit
       objective. Because our review was limited, it would not necessarily have disclosed all
       internal control deficiencies that may have existed at the time of our audit. Also, we

                                               3
considered the establishment of performance measures in accordance with the
Government Performanceand Results Act of 1993, as they related to the audit
objective and found that the Department had not established performance measures
specifically addressing executive compensation. We relied on computer-processed
data to accomplish the audit objective. When appropriate, we performed limited test
work of data reliability during our audit and determined that we could rely on the
computer-processed data.

We discussed our questioned costs with the contracting officer.

We appreciate the cooperation of your staff during our review. Please advise us within
15 work days of any action you plan to take with respect to our recommendations.




                                       redrick G. Pieper, Director
                                      Energy, Science and Environmental
                                        Audits Division
                                      Office of Inspector General

cc:   Chief Operating Officer, SC
      Director, Office of Management
      Team Leader, Audit Liaison Team, CF- 12
      Audit Liaison, MA-70
      Audit Liaison, SC-32.1
      Audit Liaison, SC-CH
      Audit Liaison, SC-ASO




                                  4
